                                                                                  Office Of Inspector General
                                                                                  Office Of Audit Services
        DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                   Region II
                                                                                   Jacob Javits Federal Building
                                                                                   26 Federal Plaza - Room 3900
                                                                                   New York, NY 10278

                                              May 29, 2009



Report Number: A-02-08-02006

Richard F. Daines, M.D.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, New York 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (DIG), final report entitled "Review of the New York State Department of Health's
Compliance With the Ryan White CARE Act Payer-of-Last-Resort Requirement." We will
forward a copy of this report to theHHS action official noted below.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, GIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-08-02006 in all correspondence.

                                               Sincerely,




                                             ~
                                                            f,cc&Lh
                                                ames P. Edert
                                                 egional Inspector General
                                                 for Audit Services

Enclosure
Page 2 - Richard F. Daines, M.D.


IDIS Action Official:

Team Leader, Compliance Team, OFAMIDFI
Health Resources and Services Administration
Parklawn Building, Room l1A-55
5600 Fishers Lane
Rockville, Maryland 20857
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF THE NEW YORK 

    STATE DEPARTMENT OF 

  HEALTH’S COMPLIANCE WITH 

  THE RYAN WHITE CARE ACT 

    PAYER-OF-LAST-RESORT 

        REQUIREMENT
 





                     Daniel R. Levinson
 

                      Inspector General 


                         May 2009
 

                       A-02-08-02006
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                   EXECUTIVE SUMMARY 


BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, P. L.
101-381, funds health care and support services for people who have HIV/AIDS and who have
no health insurance or are underinsured. As the Federal Government’s largest source of funding
specifically for people with HIV/AIDS, the CARE Act assists more than 500,000 individuals
each year. Within the U.S. Department of Health and Human Services, the Health Resources
and Services Administration administers the CARE Act.

Title II of the CARE Act, sections 2611-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other health care and support services. Pursuant to 42 U.S.C. § 300ff-
27(b)(6)(F), these grant funds may not be used to pay for items or services that are eligible for
coverage by other Federal, State, or private health insurance. This provision is commonly
referred to as the “payer of last resort” requirement.

During our audit period (grant years 2003–2005), the New York State Department of Health (the
State agency) claimed Title II drug expenditures totaling $360,695,546.

OBJECTIVE

Our objective was to determine, for grant years 2003-2005, whether the State agency complied
with the Title II payer-of-last-resort requirement that funds not be used to pay for drugs that are
eligible for coverage by other Federal, State, or private health insurance.

SUMMARY OF RESULTS

The Department appeared to have complied with the Title II payer-of-last-resort requirement that
funds not be used to pay for drugs that are eligible for coverage by other Federal, State, or
private health insurance. However, because we did not contact private insurers to determine
whether ADAP clients had private insurance coverage, we would not have identified any
instances in which ADAP clients had such coverage but had not informed the State agency. This
report contains no recommendations.




                                              i
                                                  TABLE OF CONTENTS
 


                                                                                                                             Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1 

              Title II Grant Funds .....................................................................................1 

              Payer-of-Last-Resort Requirement ..............................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective ......................................................................................................2      

               Scope............................................................................................................2 

               Methodology ................................................................................................2 


RESULTS OF REVIEW ...................................................................................................3 





                                                               ii
                                              INTRODUCTION 


BACKGROUND
 


The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public Law
101-381, funds health care and support services for people who have HIV/AIDS and who have
no health insurance or are underinsured. As the Federal Government’s largest source of funding
specifically for people with HIV/AIDS, the CARE Act assists more than 500,000 individuals
each year. Within the U.S. Department of Health and Human Services, the Health Resources
and Services Administration (HRSA) administers the CARE Act.

Title II Grant Funds

Title II of the CARE Act, sections 2611-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other HIV/AIDS health and support services, such as outpatient care,
home and hospice care, and case management.

In New York State, the Department of Health (the State agency) administers the Title II program.
During the period April 1, 2003, through March 31, 2006, the State agency claimed Title II drug
expenditures totaling $360,695,546.

Payer-of-Last-Resort Requirement

Title II of the CARE Act stipulates that grant funds not be used to pay for items or services that are
eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer of last resort” requirement. Specifically, section 2617(b)(6)(F)
of the Public Health Service Act (42 U.S.C. § 300ff-27(b)(6)(F)) states:

           [T]he State will ensure that grant funds are not utilized to make payments for any
           item or service to the extent that payment has been made, or can reasonably be
           expected to be made, with respect to that item or service –
                   (i) under any State compensation program, under an insurance policy, or
                        under any Federal or State health benefits program; or
                   (ii) by an entity that provides health services on a prepaid basis. 1

In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS 2
Program Policy Guidance No. 2 on June 1, 2000, reiterates the statutory requirement that “funds
received . . . will not be utilized to make payments for any item or service to the extent that
payment has been made, or can reasonably be expected to be made . . .” by sources other than
1
 Subsequent to the audit period in question, The Ryan White HIV/AIDS Treatment Modernization Act of 2006,
§§ 204(c)(1)(A) and (c)(3), Pub. Law No. 109-415 (December 19, 2006), redesignated this provision as section
2617(b)(7)(F) (42 U.S.C. § 300ff-27(b)(7)(F)) and amended subparagraph (ii) to prohibit the State from using these
grant funds for any item or service that should be paid for “by an entity that provides health services on a prepaid
basis (except for a program administered by or providing the services of the Indian Health Service).”
2
    DSS is the Division of Service Systems, a component of HRSA’s HIV/AIDS Bureau.


                                                     1
 

Title II funds. The guidance then provides: “At the individual client level, this means that
grantees and/or their subcontractors are expected to make reasonable efforts to secure other
funding instead of CARE Act funds whenever possible.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for grant years 2003–2005, whether the State agency complied
with the Title II payer-of-last-resort requirement that funds not be used to pay for drugs that are
eligible for coverage by other Federal, State, or private health insurance.

Scope

Our review covered the period April 1, 2003, through March 31, 2006 (grant years 2003–2005).
On its Federal financial status reports for that period, the State agency claimed ADAP
expenditures totaling $360,695,546 for HIV/AIDS drugs dispensed.

We did not assess the State agency’s overall internal controls for administering Title II funds.
Rather, we limited our review to gaining an understanding of those significant controls related to
the claiming of HIV/AIDS drug costs. Because of concerns about protecting program clients’
personally identifiable identification, we did not contact private health insurance companies to
confirm health insurance coverage. We conducted our fieldwork at the State agency’s offices in
Albany, New York from December 2008 to February 2009.

Methodology

To accomplish our objective, we:

        •   reviewed applicable Federal laws, regulations, and guidance;

        •   reviewed documentation provided by the State agency for grant years 2003–2005,
            including notice of grant awards, financial status reports and supporting accounting
            records, and the ADAP drug formulary (a list of drugs authorized for purchase by the
            program);

        •   held discussions with State agency officials to identify policies, procedures, and
            guidance used to identify other insurance coverage and for billing HIV/AIDS drugs to
            other Federal or State programs and private insurance plans;

        •   analyzed the State agency’s procedures for accounting for and dispensing drugs to
            Title II clients;

        •   obtained a file of 2,118,836 ADAP claims totaling $647,759,939 (includes both
            Federal and State funded ADAP drugs);



                                             2
         •   eliminated from the file 929,352 ADAP claims, totaling $48,166,767, which had
             individual claim values below $150;

         •   identified a sampling frame of 1,189,484 claims totaling $599,593,172 (includes both
             Federal and State funded ADAP drugs);

         •   selected a simple random sample of 100 claims from the sampling frame of 1,189,484
             claims and:

                  o reviewed the State’s Medicaid eligibility database to determine whether
                    clients were enrolled in Medicaid,

                  o reviewed the State agency’s files to determine whether clients were enrolled
                    in other health insurance plans, and

                  o reviewed the State agency’s payment invoices to identify the cost of dispensed
                    drugs; and

         •   visited a judgmentally selected sample of nine registered pharmacies 3 that distributed
             ADAP drugs to determine how the pharmacies dispensed and claimed ADAP drugs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                          RESULTS OF REVIEW

The Department appeared to have complied with the Title II payer-of-last-resort requirement that
funds not be used to pay for drugs that are eligible for coverage by other Federal, State, or
private health insurance. However, because we did not contact private insurers to determine
whether ADAP clients had private insurance coverage, we would not have identified any
instances in which ADAP clients had such coverage but had not informed the State agency. This
report contains no recommendations.




3
 All licensed New York State pharmacies are eligible to register with the State to distribute ADAP drugs if actively
enrolled in the State’s Medicaid program, the State’s Elderly Pharmaceutical Insurance Coverage program, and one
or more Medicare prescription drug plans. In addition, pharmacies must be able to submit claims electronically.



                                                     3
